Taylor A.R. Meehan
Taylor.Meehan@BartlitBeck.com

Courthouse Place
54 West Hubbard Street
Chicago, IL 60654
main: (312) 494-4400
direct: (312) 494-4416

March 6, 2020

BartlitBeck.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re:

General Electric Company v. United Technologies Corp., No. 19-1012

Dear Mr. Harris:
I represent Respondent United Technologies Corp. in the above-captioned case.
Petitioner filed a petition for writ of certiorari on February 12, 2020. Respondent intends to
file a brief in opposition, which is currently due on March 16, 2020, according to the Court’s docket.
Pursuant to Rule 30.4, I respectfully request a 30-day extension of that deadline to and including
April 15, 2020.
A 30-day extension will ensure sufficient time to fully analyze and respond to the arguments
raised in the petition and amicus briefs that Respondent expects will be filed in this matter.
Warm regards,

Taylor A.R. Meehan

cc: Gregory G. Garre
Counsel for Petitioner

